     Department of Homeland Security

     ��������������������������


 Unless Modified, FEMA’s Temporary Housing Plans 

        Will Increase Costs by an Estimated 

                 $76 Million Annually 





OIG-13-102                                June 2013

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 I www.oig.dhs.gov




                                  JUN 2 5 2013


MEMORANDUM FOR:              Joseph Nimmich
                             Associate Administrator for Response and Recovery
                             Federal E                        Agency

FROM:
                                         s        eneral
                                        Emergency Managemen t Oversight

SUBJECT:                     Unless Modified, FEMA's Temporary Housing Plans Will
                             Increase Costs by an Estimated $76 Million Annually

Attached is our final report, Unless Modified, FEMA's Temporary Housing Plans Will
Increase Costs by an Estimated $76 Million Annually. We incorporated the formal
comments from the Federal Emergency Management Agency (FEMA) in the final report.

The report contains one recommendation aimed at improving FEMA's temporary
housing plans. Your office concurred with the recommendation. Based on the
information provided in your response to the draft report, we consider the
recommendation resolved and closed.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Kaye McTighe, Director,
Office of Emergency Management Oversight, at (202) 254-4100.

Attachment
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 5

              An Alternative for the Smaller Park Model Housing Unit Will Save $76 Million
              Annually .................................................................................................................. 5
              FEMA Resolved Most Hurricane Katrina-related Temporary Housing Unit
              Health Concerns ..................................................................................................... 9
              Concerns with 2011 Deployed Units....................................................................... 9
              Conclusion ............................................................................................................. 10
              Recommendation.................................................................................................. 11
              Management Comments and OIG Analysis .......................................................... 11

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 12
              Appendix B:          Management Comments to the Draft Report ............................... 14
              Appendix C:          State Summaries ............................................................................ 16
              Appendix D:          Major Contributors to This Report ................................................ 30
              Appendix E:          Report Distribution ........................................................................ 31

   Abbreviations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              GAO                   Government Accountability Office
              HUD                   U.S. Department of Housing and Urban Development
              HVAC                  heating, ventilating, and air conditioning
              IATAC                 Individual Assistance Technical Assistance Contractor
              OIG                   Office of Inspector General
              UFAS                  Uniform Federal Accessibility Standards




www.oig.dhs.gov                                                                                                                  OIG-13-102 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Federal Emergency Management Agency (FEMA) announced a change in its
   temporary housing program that we estimate will increase costs and reduce efficiency
   and effectiveness. In 2012, FEMA announced that it would no longer use park models as
   a housing option, and instead would use only manufactured housing certified by the
   U.S. Department of Housing and Urban Development. Unless FEMA takes actions to
   ensure that it maintains the ability to use temporary housing units similar in size to the
   park model, this decision will increase program costs by tens of millions of dollars
   annually, and may hinder FEMA’s ability to provide shelter to disaster survivors quickly.

   In reacting to the decision, FEMA field staff expressed concerns to us about their ability
   to house disaster survivors quickly and cost effectively. Further, FEMA officials said that
   many homeowners prefer units that can fit on their home sites, because it allows them
   to remain on their own property near their places of employment and schools while they
   rebuild their homes. Often, the larger manufactured housing units can be situated only
   on commercial sites, if available, or on FEMA-developed group sites. For 2011 disasters,
   80 percent of units on private sites were park models. Based on our cost analysis, if
   FEMA placed manufactured housing units on group sites instead of park models on
   private sites, the increased cost of the temporary housing mission would be $76 million
   for a 12-month deployment. We question the decision to eliminate the park models.

   Since Hurricane Katrina, FEMA has improved the quality of its temporary housing units.
   FEMA resolved the unhealthy formaldehyde levels and the fire hazards related to the
   temporary housing units. A major contributing factor to improved housing conditions
   was FEMA’s decision to discontinue the use of travel trailers, designed for recreational
   use, which were the source of many of the previous health and safety problems.
   Instead, FEMA provided survivors with manufactured housing units certified by the U.S.
   Department of Housing and Urban Development, along with smaller park models that
   are not certified. However, both of these deployed units still had various product
   quality, installation, and transportation issues. We have made one recommendation to
   improve the efficiency and effectiveness of the temporary housing unit program.

   Appendix C contains summaries of the challenges and successes of the 2011 temporary
   housing deployments in Missouri, Pennsylvania, New York, North Dakota, Alabama,
   Mississippi, and North Carolina.




www.oig.dhs.gov                                 1                                       OIG-13-102

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   Section 408 of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefActf
   (42 U.S.C. 5174) authorizes FEMA to provide housing assistance to disaster survivors,
   including rental allowance and direct assistance in the form of temporary housing units.
   The temporary housing unit program, which is the subject of this report, involves the
   acquisition, transport, placement, maintenance, and deactivation of temporary housing
   units for use by disaster survivors.

   Hurricanes Katrina and Rita displaced approximately 700,000 people, exhausting the
   supply of available housing and resulting in a massive FEMA temporary housing effort.
   In response to these two disasters, FEMA placed more than 200,000 manufactured
   housing units, travel trailers, and park models in private sites, existing mobile home
   parks, and group sites throughout the Gulf Coast area. Because this exceeded the
   inventory of available temporary units, FEMA had manufacturers quickly produce travel
   trailers, park models, and manufactured housing units. The group site effort experienced
   major problems. Many communities did not want FEMA to place group sites in their
   community. Placing the sites increases costs, as noted in a 2007 Government
   Accountability Office (GAO) report. GAO estimated that the cost of placing units at
   group sites (including site improvements) ranged from $69,000 to exceeding $220,000
   per unit. In contrast, GAO reported that the cost of placing a unit at a private site was
   about $30,000.

   More important, many FEMA-supplied units presented health and safety issues. The
   most serious health issue was formaldehyde levels. In a 2008 report, the Centers for
   Disease Control and Prevention reported that 38 percent of the units tested had
   formaldehyde levels that could cause health effects in sensitive individuals. The report
   also stated that travel trailers had higher formaldehyde levels than manufactured
   housing units or park models.

   FEMA received a great deal of criticism in the press, from Congress, and from the
   accountability community concerning these health and safety issues, particularly
   formaldehyde levels. FEMA officials researched the causes of these problems and
   instituted corrective actions. Also, FEMA officials worked with manufacturers to
   develop park model units with so few formaldehyde-emitting components that the
   formaldehyde levels would be less than even the manufactured housing units certified
   by the U.S. Department of Housing and Urban Development (HUD). In addition, FEMA
   tested a variety of housing options at a test site in Maryland. However, FEMA ultimately
   decided to terminate its programs to develop and provide improved air quality park
   models, and to rely solely on HUD-certified units.

www.oig.dhs.gov                                2                                      OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Historically, FEMA used three types of temporary units for disaster survivors: travel
   trailers, park models, and manufactured housing units. Figure 1 briefly describes these
   units.

   Figure 1. Historical FEMA Temporary Housing Units

    Travel Trailer                      Travel trailers are designed to provide temporary living
                                        quarters for recreational purposes. They are not
                                        regulated by HUD. FEMA told us that it decided to
                                        terminate the use of travel trailers in response to
                                        formaldehyde concerns following Hurricanes Katrina and
                                        Rita. FEMA now does not consider such units appropriate
                                        for long-term use as a dwelling.
    Park Model                          Park models are 12 feet wide and 33 feet long. They are
                                        transportable, primarily designed for long-term or
                                        permanent placement, and are not regulated by HUD.
                                        Park models are designed to provide temporary living
                                        quarters for recreation, camping, or seasonal use, and
                                        some zoning laws provide more flexibility in their
                                        placement.
    Manufactured Housing Unit           Manufactured housing units are 12 to 14 feet wide and
                                        40 to 64 feet long. They are designed in one-, two-, or
                                        three-bedroom models. They are regulated by HUD and
                                        are intended as permanent housing, with some zoning
                                        laws restricting their placement.




   After Hurricane Katrina, FEMA decided to terminate the use of travel trailers because of
   health concerns and adverse publicity. Therefore, in 2011 FEMA used park models and
   manufactured housing units for its disaster response.

   FEMA places housing units at three site types:

           Private Sites – Units are placed directly on private property, typically in a front
           yard or driveway. Disaster survivors prefer these sites because they are able to
           stay on their own property while repairs are made to their homes and they can
           maintain a sense of community. Private sites are the least expensive option.

           Commercial Sites – Units are placed on existing property, typically in commercial
           trailer parks or campgrounds, that have all the necessary utility hookups and are

www.oig.dhs.gov                                  3                                        OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           ready for occupancy. The cost effectiveness of these sites depends greatly on
           whether FEMA can place units on vacant pads or has to fund a site expansion.

           Group Sites – Units are placed on sites that are built, including the installation of
           utilities, to accommodate housing units for displaced survivors. These sites
           require time to develop and are FEMA’s most expensive option. FEMA told us
           that group sites are the least desirable option.

   Implementing guidance specifies that unit placement, whenever practicable, should be
   located on sites provided by the State or local government, the owner of the site, or the
   displaced occupant. As an alternative, group sites provided by FEMA can be used if they
   are more economical or accessible.

   In 2011, FEMA reviewed its direct housing program to identify ways to make greater use
   of existing resources and increase efficiency while ensuring the comfort and security of
   disaster survivors. FEMA convened the direct housing program review in response to
   comments from stakeholders, including members of Congress; State, local, and tribal
   government officials; nonprofit organizations; and private sector partners. During this
   effort, FEMA took into account information received over the years from housing
   partners, including HUD, members of Congress, States, local governments, housing
   associations, nonprofit organizations, and disaster survivors. As a result of its review,
   FEMA decided that it would use only larger HUD-certified manufacturing housing units.
   In support of this decision, FEMA stated that HUD standards for manufactured housing,
   with respect to formaldehyde, cover the use of various wood products in manufactured
   housing. Based on this issue, FEMA told us it decided to purchase HUD-certified
   manufactured homes to replace travel trailers and park models in its inventory, both of
   which are not regulated by HUD. FEMA also told us that although this decision will
   prevent the use of park models, it considered that the HUD-certified manufactured
   homes will provide disaster survivors with temporary accommodations more suitable
   for longer-term occupancy.




www.oig.dhs.gov                                  4                                        OIG-13-102

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Results of Audit

   FEMA’s decision to rely solely on HUD-certified units for its temporary housing unit
   program will likely increase the cost of the program. Our analysis of FEMA cost and
   usage data shows that this decision will increase program costs by an estimated $76
   million and place a greater burden on future displaced survivors. In 2011, 80 percent of
   the temporary housing units that FEMA placed at private sites were park models. If
   FEMA used only manufactured housing units, some may have been placed in
   commercial or group sites at a substantially higher cost.

   In 2011, FEMA used two types of units to house temporarily nearly 4,000 families
   impacted by disasters. Those units consisted of FEMA-approved park models and HUD-
   certified manufactured housing units. Neither the park models nor the HUD units had
   the formaldehyde-related air quality and fire hazard issues that plagued the units
   provided to Hurricanes Katrina and Rita survivors. FEMA and State officials and disaster
   survivors were generally pleased with temporary housing units used in 2011; however,
   they cited problems with some units’ design and quality. Appendix C contains
   summaries by State of the unit deployments.

   In supporting its decision to use only HUD-certified homes, FEMA asserted that it will
   have greater access to manufactured housing sold in the United States, and it will not
   have to incur the cost of storing a large number of units in its inventory. The
   conclusions reached in this report assumed that FEMA would continue to maximize the
   use of available manufactured housing and minimize the number of units in its
   inventory. Therefore, we did not estimate cost of storing temporary housing units
   because there is not a reliable way of estimating that amount.

           An Alternative for the Smaller Park Model Housing Unit Will Save $76 Million
           Annually

           In 2012, FEMA announced plans to use only the HUD-certified units in the future,
           eliminating the more compact park model units. Because of their size and some
           State/local zoning limitations, the HUD-certified units cannot be used on some
           private sites unless FEMA takes action to reduce the size of the units. This
           decision will force FEMA to place units at the more expensive commercial and
           group sites. Based on the number of FEMA-deployed park models on private
           sites in 2011, we estimate that the decision will cost FEMA an additional $76




www.oig.dhs.gov                               5                                      OIG-13-102

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           million if manufactured housing units are placed in group sites.1 Our analysis of
           the nearly 4,000 units deployed in 2011 is consistent with the average annual
           number of about 4,400 temporary housing units occupied from 2004 through
           2010.2 This number excluded housing units occupied in Louisiana and Mississippi
           for Hurricane Katrina, since the housing mission for this disaster was
           extraordinarily high. In addition to the added costs, FEMA field staff and State
           officials expressed concern regarding this new policy since commercial
           expansions and group sites require more time to construct, and survivors may be
           displaced longer and relocated to areas with a greater distance from their
           community, places of work, and children’s schools.

           According to the Stafford Act, temporary housing units, whenever practicable,
           should be located on sites provided by the State or local government, the owner
           of the site, or the displaced occupant.3 As an alternative, group sites provided by
           FEMA can be used if they are more economical or accessible. By restricting the
           use of smaller units such as the park models, FEMA has in effect eliminated
           many smaller-capacity economical sites, a decision that appears inconsistent
           with the Stafford Act’s guidance on site location. Furthermore, the Stafford Act, §
           408(b)(2), 42 U.S.C. § 5174(b)(2), sets forth procedures that FEMA is to follow
           when providing housing assistance, stipulates factors such as (1) cost
           effectiveness; (2) convenience to the individuals and households; and (3) the
           suitability and availability of the types of assistance. FEMA’s decision to limit
           temporary housing choices to HUD-certified units that sometimes cannot fit on
           residential sites, are more expensive, and often involve time-consuming
           relocations, seems contrary to the Act’s intent.

           We have categorized FEMA’s temporary housing unit program costs into three
           broad types: (1) unit acquisition costs; (2) one-time costs to make the site ready,
           place, and deactivate the unit; and (3) recurring costs for unit cleaning and
           maintenance, pad leases, and utilities.4 In the 2011 deployment, the park

   1
     We based the $76 million estimate on FEMA needing to replace the 1,373 park models it placed on
   private sites with HUD-certified units at group sites. We believe that this estimate is a valid assumption
   because 93 percent of the HUD-certified units FEMA used were the large three-bedroom models. To
   avoid overstating the estimate, we limited recurring costs to a 12-month period—not FEMA’s allowable
   18-month period. See figure 2.
   2
     We excluded the 127,726 housing units that FEMA used in 2005 in the states of Louisiana and Mississippi
   for Hurricane Katrina.
   3
     42 U.S.C. 5174(d)(1), Terms and Conditions Relating to Housing Assistance Sites. We based our analysis
   on FEMA’s compliance with the economy and accessibility concerns for disaster survivors in this section of
   the Stafford Act.
   4
     We did not estimate cost of storing temporary housing units because there is no reliable way of
   estimating that amount.

www.oig.dhs.gov                                        6                                             OIG-13-102

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           models (costing about $24,000 each) comprised 80 percent of the units at
           private sites. The HUD-certified units (costing an average of about $33,000
           each) were placed mainly at group and commercial sites and comprised only 20
           percent of the units at private sites.5

           Figure 2 shows that the group site one-time setup costs for 2011 exceeded the
           one-time private site setup costs by $45,000. The reason for this significant cost
           difference is that FEMA pays for site preparation and infrastructure, including
           utilities and roads, at group sites. These costs are seldom necessary at private
           sites. As for recurring costs, FEMA pays to maintain the units at all three types of
           sites, but other costs vary by site. For instance, monthly pad rentals are a part of
           the cost of commercial sites, whereas private or group sites do not have this
           cost. Utilities are a cost of group sites, while that expense is usually included in
           the pad rental at commercial sites.

           Figure 2. Average 12-Month Cost of a FEMA Temporary Housing Unit by Type
           of Site for 2011 Disasters6




           Source: OIG analysis of FEMA data

   5
     Most manufactured housing units placed by FEMA were two- and three-bedroom models. FEMA did
   place five one-bedroom units on commercial sites in 2011.
   6
     To avoid overstating the estimated increased costs, our analysis did not rely on a weighted average of
   the cost of temporary housing units used during 2011. If we had, the weighted average cost of the HUD-
   certified units would have been $43,756 and the weighted average of the park models would have been
   $22,148. This is because 93 percent of the HUD units that FEMA used were the larger three-bedroom
   units that cost about $45,000 and 87 percent of the FEMA park models were a less expensive model that
   cost only $21,500.

www.oig.dhs.gov                                        7                                             OIG-13-102

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



           Few commercial sites had adequate vacancies to accommodate the number of
           pads needed for the temporary housing units. As a result, FEMA funded
           upgrades and expansions to permit additional units to locate at these sites.
           These upgrades can be very expensive. For example, in Prattsville, NY, FEMA
           hired the U.S. Army Corps of Engineers to expand a commercial site. During the
           2011 temporary housing unit mission, only 10 units were placed in the park and
           the expansion cost FEMA more than $270,000 per unit.

           In response to the 2011 North Dakota flooding, FEMA placed 1,056 park models
           at survivors’ private sites, thus saving taxpayers $58 million that might have been
           required to construct group sites that accommodate HUD-certified
           manufactured housing units.7 In North Dakota, FEMA used park models on 94
           percent of the private sites. If FEMA had to use HUD-certified manufactured
           housing units and place them at newly constructed group sites, the estimated
           additional cost to construct those sites is about $46 million.

           After Hurricane Irene struck North Carolina, FEMA installed 209 temporary
           housing units for disaster survivors. Initially, some of these units were not a
           viable option because most of the areas affected were low elevation and
           designated as Special Flood Hazard Areas.8 Manufactured housing units are
           restricted from being placed in Special Flood Hazard Areas by local or county
           zoning ordinances. However, impacted counties, the State, and FEMA developed
           a compromise to allow the use of two-bedroom park models with the
           requirement that they were vacated and retrieved prior to the 2012 hurricane
           season. As a result, 174 park models were able to be placed on private sites.
           Without the option of the park model, the HUD-certified manufactured housing
           units would have been placed in commercial or group sites and survivors would
           not have been able to stay on their own property.

           FEMA and State officials told us that disaster survivors generally prefer being
           near their own property because it is less disruptive to their lives. Specifically,
           having the temporary housing unit near their damaged home is closer to both
           their children’s schools and often the homeowners’ place of employment. It also
           enables disaster survivors to monitor the progress being made to their home.
           FEMA informed us that it started to negotiate with manufacturers of HUD-
   7
     The $58 million estimate consist of $10 million in additional costs housing unit costs, 2 million for
   recurring costs and $46 million in group site construction costs.
   8
     Land areas that are at high risk for flooding are called Special Flood Hazard Areas or floodplains. These
   areas are indicated on flood insurance rate maps. A home located in a floodplain has a 26 percent chance
   of suffering flood damage during the term of a 30-year mortgage.

www.oig.dhs.gov                                        8                                               OIG-13-102
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           certified manufactured housing units to construct smaller units that would
           replace the park models.

           FEMA Resolved Most Hurricane Katrina-related Temporary Housing Unit
           Health Concerns

           In response to the housing unit problems that followed Hurricanes Katrina and
           Rita, FEMA studied the situation and instituted several corrective actions. Most
           notably, FEMA eliminated the travel trailer units from the program while
           continuing to use park models and full-size manufactured housing units. FEMA
           also instituted indoor air quality standards that park model and HUD-certified
           manufactured housing manufacturers had to meet. Because these actions did
           not add any mechanical device or alternative construction method, FEMA did
           not quantify the associated costs of these actions. According to FEMA, the
           roughly 4,000 temporary housing units deployed in 2011 did not have problems
           with unhealthy indoor air quality or fire safety.

           Concerns with 2011 Deployed Units

           Although FEMA field staff and State officials were pleased with both the park
           models and the HUD-certified units, they reported some problems with units
           deployed in 2011 that detracted from disaster survivors’ well-being. Those
           problems by category were—

           Product Quality
              •	 Inefficient heating units;
              •	 Defective microwave ovens;
              •	 Ground fault circuit interrupters not installed, as required;
              •	 Inadequate sized wire for the electrical load of the heating, ventilation,
                 and air conditioning (HVAC) unit;
              •	 Inoperative smoke detectors and weather radios;
              •	 Clogged drains;
              •	 Defective faucets;
              •	 Moisture and mold problems;
              •	 Faulty drains, with standing water in showers;
              •	 Water leaks in toilets, sinks, and showers; and
              •	 Inadequate air ventilation systems.




www.oig.dhs.gov                                 9	                                      OIG-13-102

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Installation Problems
               •	 FEMA contractors did not provide timely installation;
               •	 Electrical panel boxes were incorrectly installed;
               •	 Water lines froze when heat tape was incorrectly installed;
               •	 High winds in some areas destroyed trailer foundation skirting; and
               •	 Winterization (arctic doors, insulation, etc.) was inadequate in northern
                   climates.

           Transportation-related Damages
              •	 Some units’ tow hitches broke during transport; and
              •	 Water damage occurred during transport.

           Appendix C contains summaries of the challenges and successes of the 2011
           temporary housing deployments in Missouri, Pennsylvania, New York, North
           Dakota, Alabama, Mississippi, and North Carolina.

           Conclusion

           Our audit of the 2011 disasters showed that FEMA made significant
           improvements in reducing formaldehyde exposure and fire hazards in its
           temporary housing unit program. However, our cost analysis shows that placing
           temporary housing units at group sites and commercial sites cost significantly
           more than placing them at private sites. FEMA’s recent policy change to
           discontinue using the park model homes as a temporary housing alternative will
           result in a significant increase in the cost of the temporary housing program.
           The limited amount of space in commercial mobile home parks and the costs of
           developing vacant land for group sites will be even more pronounced for a large-
           scale housing mission. In addition, State, local, and some FEMA officials predict
           that the decision to discontinue the use of park model homes as a temporary
           housing alternative will cause delays in providing occupancy-ready temporary
           housing. They also predict the decision will make it difficult for future disaster
           survivors to reside near their own property while rebuilding their homes and
           make it more difficult to establish normalcy in the aftermath of a disaster. In our
           view, this policy change will jeopardize FEMA’s ability to provide cost-effective
           and rapid disaster housing assistance.

           FEMA informed us that it started to negotiate with manufacturers of HUD-
           certified manufactured housing units to construct smaller units that would
           replace the park models. If those smaller units can be placed on the typical



www.oig.dhs.gov                                10                                 	       OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           private sites, we encourage FEMA to pursue that alternative and would consider
           that initiative to satisfy the intent of our recommendation.

           Recommendation

           We recommend that the Associate Administrator for Response and Recovery,
           Federal Emergency Management Agency:

           Recommendation #1: Provide a comparable housing alternative to the park
           model unit that (1) allows disaster survivors, when possible, to stay close to their
           home and (2) is cost effective, saving an estimated $76 million annually.

           Management Comments and OIG Analysis

           We received and reviewed written comments on the draft report from FEMA’s
           Associate Administrator for Policy, Program Analysis and International Affairs.
           FEMA concurs with our recommendation and is implementing an action plan. In
           2012, FEMA developed and executed a contract for a one-bedroom
           manufactured home that is comparable in size and cost to a park model. FEMA
           believes the current mix of sizes now available will allow for survivors’ needs to
           be met more effectively and efficiently. FEMA provided the Department of
           Homeland Security Office of Inspector General (OIG) with documentation of the
           solicitation for the one-bedroom manufactured homes. Based on the
           information provided, we consider this recommendation closed. Appendix B
           includes a copy of the management comments in their entirety.




www.oig.dhs.gov                                 11                                       OIG-13-102

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to review the economy and effectiveness of FEMA’s
   temporary housing unit program, which included the safety and suitability of the
   housing units deployed in 2011. We audited the time required to place housing units at
   disaster sites, the quality and costs of the housing placement sites, the quality and costs
   of the different types of units, and the suitability and safety of the units as experienced
   by the disaster survivors.

   The scope of our review included FEMA temporary housing units deployed in calendar
   year 2011. We audited the temporary housing unit program operation in the seven
   States that had the most units deployed. The units in those seven States constituted
   more than 97 percent of all FEMA units deployed.

   We interviewed FEMA officials at headquarters and at field offices in the seven States
   visited. In cases where FEMA Joint Field Offices completed housing operations, we
   interviewed the FEMA regional officials who assumed responsibility for those
   operations. We also interviewed State and local officials knowledgeable about or
   responsible for housing unit operations in those seven States. We reviewed documents
   related to the temporary housing unit program and examined a sample of units in the
   field at private sites, commercial mobile home parks, and group sites. We conducted
   fieldwork in the District of Columbia, Missouri, Pennsylvania, New York, North Dakota,
   Mississippi, Alabama, Colorado, and Georgia.

   To be conservative in our calculation of the additional cost of the change in FEMA
   temporary housing policy, we used the straight average of a cost of a park model
   ($23,948) and the straight average of the cost of one-, two-, and three-bedroom mobile
   homes ($33,319). The amount would be more if we used the weighted average of the
   units based on the total deployment of housing units in 2011. For the park models, 87
   percent deployed were standard and 13 percent were Uniform Federal Accessibility
   Standards (UFAS), which produced a weighted average of $22,148. For the mobile
   homes, only 0.4 percent were one-bedroom models, 6.6 percent were two-bedroom
   models, 82 percent were three-bedroom models, and 11 percent were three-bedroom

www.oig.dhs.gov                                12                                       OIG-13-102

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   UFAS models, which produced a weighted average of $43,756. This would have
   increased the estimate by approximately $17 million.

   We conducted this performance audit between February and October 2012 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              13                                    OIG-13-102

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                       l'.S. noporcmonl of llomolan ~ Scruri1r
                                                                                       Washinglon. DC 20472




                                                JUN 0 4 2013
              MEMORANDUM FOR:               D. Michael Beard
                                            Assistant Inspector General
                                            Office of Emergency Management Oversight

              FROM:                         David J. Kaufman    ~-\' '      7>-..~
                                                                           1='1-l
                                            Associate Administrator tor
                                            Policy. Program Analysis and International Affairs
                                            Federal Emergency Management Agency (FEMA)

              SUBJECT:                      FEMA Response to OIG Draft Report: OIG Project Number 12-
                                            114-EMO-FEMA...Unless Modified. FEMA 's Temporary
                                            Housing Plans Will Increase Costs by an Estimated $76 Million
                                            Annually..


              Thank you for the opportunity to review and comment on OIG Draft Report: OIG Project
              Number 12-114-EMO-FEMA, '·Unless Modified, FEMA's Temporary Housing Plans Will
              Increase Costs by an Estimated $76 Million Annually...

              The draft report contains one (I) recommendation in which our o ffice concurs. This
              memorandum serves as our wrillen comments on the drafl report and specific responses to each
              recommendation.

              OIG Recommendation: We recommend that the Acting Associate Administrator for Response
              and Recovery, Federal Emergency Management Agency provide a comparable housing
              alternative to the park model unit that (I) allows disaster survivors. when possible, to stay close
              to their home and (2) is cost effective. saving an estimated $76 million annually.

              Management Comments and OIG Analysis: During our exit conference with FEMA on
              February 20, 2013, they said they were addressing this issue. Once they provide us with
              infonnation conce rning their action plan. we would consider this recommendation closed.

             FEMA Respon se to Recomm endatio n: Concur. In 2012 FEMA developed and executed a
             contract for a one-bedroom manufactured home that is comparable in size and cost to a park
             model with five vendors; Recreation By Design, LLC; GSJi of Alabama. LLC: Scotbilt l-lomes.
             Inc.; Champion Home Builders, Inc.: and PKMM.lne. This model was not available in 201 1,
             the year for which the OIG report is based. We believe that had the one-bedroom model been
             available in 20 II, they would have been suitable substitutes for the majority of park models.
             FEMA 's decision to use only manufactured homes that meet I-IUD standards is based on an
                                                                                      W\\\\'.fc:ma gov




www.oig.dhs.gov                                               14                                                                 OIG-13-102

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




             overriding concern for health and safety of disaster survivors. We believe the current mix of
             sizes now available will allow us to more effectively and efficiently meet survivors' needs.

              FEMA believes that our response satisfies the intent of this recommendation and requests that
              recommendations be closed.

              Thank you again for the opportunity to comment on OIG Draft Report: OIG Project Number 12-
              114-EMO-FEMA, "Unless Modified, FEMA's Temporary Housing Plans Will Increase Costs by
              an Estimated $76 Million Annually". Please direct any questions regarding this response to Gary
              McKeon, FEMA's Chief Audit Liaison, at 202-646-1308.

              Attachment:
              Solicitation contains all ofFEMA's requirements regarding the Temporary Housing Units (THU 's).




                                                               2




www.oig.dhs.gov                                                15                                               OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   State Summaries
           Missouri

           On May 22, 2011, an Enhanced Fujita scale-5 tornado struck the city of Joplin,
           MO, leaving a 6-mile long and 1.5-mile wide path of destruction. More than 160
           people were killed, many more were injured, and about 400 structures (including
           major structures such as a high school and hospital) were destroyed. Most of
           the destroyed structures were residences. Presidential Declaration FEMA-1980-
           DR was signed.




                       The destruction left by the Joplin Tornado. Source: OIG

           Because many homeowners had adequate insurance, they were able to stay in
           hotels or motels while their homes were rebuilt. However, disaster responders,
           along with the insured homeowners, rapidly filled area hotels and motels,
           leaving little available housing for displaced renters. A housing task force was
           established with local, State, and Federal government collaboration. During the
           task force field assessment, it became apparent that temporary housing units
           and community group sites would be required.

           Local government officials identified land adjacent to the Joplin Airport for the
           development of group sites. Roads, a police station, a fire substation, and
           tornado shelters were built at the sites, and electrical, water, and sewer
           connections were established. The first 100 units were in place by the end of

www.oig.dhs.gov                                   16                                    OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           July and an additional 411 units were set up in August. Two of the three group
           sites were developed by the U.S. Army Corps of Engineers and the third, along
           with the commercial site expansion, was constructed by a FEMA Individual
           Assistance Technical Assistance Contractor (IATAC). A total of 586 units were
           occupied out of the 597 units placed. Approximately 90 percent of the survivors
           had been renters prior to the disaster.




                        A Joplin FEMA Group Site Scene. Source: OIG

           Local government officials said that they were generally pleased with the
           temporary housing sites’ development process, the speed with which temporary
           housing was provided, and the adequacy of the units. They said that the quick
           establishment of the Missouri joint housing taskforce was an effective means to
           address any problems as they developed. FEMA officials in Missouri reported
           that there were no major problems with the temporary housing units. The most
           common housing issues were that some park models had been delivered with
           sawdust-clogged plumbing drains and the high winds common to the area tore
           the skirting around the foundation. Most problems were readily corrected.

           FEMA officials said that temporary housing in future disasters could be costlier if
           only manufactured housing units will be used since these do not fit on most
           private lots and FEMA housing officials will have to find available commercial
           sites or develop group sites.




www.oig.dhs.gov                                  17                                     OIG-13-102

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Pennsylvania


           From August 26 through 30, 2011, Hurricane Irene hovered over eastern
           Pennsylvania, causing catastrophic flooding and extensive damage. Four days
           later, Tropical Storm Lee struck the same general area and caused additional
           damage. Fifteen people died as a consequence of the storms and more than
           11,000 applicants required rental and direct housing assistance from FEMA.
           Presidential Declarations FEMA-4025-DR and FEMA-4030-DR were signed on
           September 3, 2011, and September 12, 2011, respectively. Because Pennsylvania
           has had an influx of workers developing the natural gas fields, little unused
           housing was available in some affected areas. FEMA needed to place 330
           temporary housing units in 10 different counties. Both manufactured housing
           units and park models were used. The 330 units were placed at two FEMA-
           developed group sites, two FEMA-funded commercial park expansions, vacant
           pads in mobile home parks, and private sites (such as on the property of
           damaged homes). FEMA officials said that placing units in commercial parks on
           existing pads was less costly than the new development of group sites, which is
           the most costly option. FEMA made use of both the U.S. Army Corps of
           Engineers and a FEMA IATAC in developing sites and placing units.




                             Flood-damaged home in Pennsylvania. Source: OIG

           The biggest problem faced by FEMA officials in Pennsylvania was the
           performance of the FEMA IATAC in getting units installed in a timely manner.
           FEMA used both the U.S. Army Corps of Engineers and an IATAC. FEMA officials
           said that the Corps performed satisfactorily, but the IATAC did not. The IATAC
           and its subcontractors were not adequately staffed, and did not know or follow

www.oig.dhs.gov                                18                                    OIG-13-102

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           local building codes, resulting in code violations and delays. Sometimes the
           IATAC subcontractors performed sloppy and inadequate work and had to be
           recalled to correct errors. The IATAC took an average of 17 days to deliver and
           install each housing unit once the unit had arrived at the Pennsylvania staging
           area. FEMA officials said that installation was to be completed in 72 hours rather
           than 17 days. As a consequence, the last disaster survivors were not placed in
           housing units until December 24, 2011, nearly 4 months after the disaster.
           FEMA officials said that placement could have been completed a month earlier if
           the IATAC performance had been satisfactory.

           Apart from the installation problems, FEMA and a local government official said
           that they were generally pleased with the quality and suitability of the
           temporary housing units. Problems with the housing units in Pennsylvania
           included the following:

                  •   Water leaks due to plumbing defects;
                  •   Cheap faucets with plastic components that would break off and leak;
                  •   Electrical breaker boxes installed upside-down in 87 units;
                  •   Damage during the hauling to Pennsylvania; and
                  •   Heating system problems.

           Many units were difficult and expensive to heat adequately. The units have
           electric heat, and FEMA officials said that air flow velocity contributed to the
           problem. Survivors at private sites, who have to pay their own utility bills,
           complained of high electric bills. Commercial site owners, who pay utility costs
           out of pad rent, reported unusually high electrical bills and have demanded, and
           received, an increase in rent payments from FEMA.

           Occupants said that FEMA units can be uncomfortable because of excessive air
           from the ceiling vents, which in many cases blow right onto beds or seating
           areas. When it is cold, some residents said that they addressed the lack of
           comfort and high costs of heating the FEMA units by adding supplemental
           heaters, which can introduce possible fire hazard conditions.

           Unfortunately, some housing units already placed on private sites needed to be
           moved to commercial or group sites because of potential flooding concerns.
           Pennsylvania considers the park model units to be manufactured housing and,
           therefore, neither the manufactured housing units nor park model units could
           stay in any designated floodplains.



www.oig.dhs.gov                                  19                                     OIG-13-102

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           New York


           Hurricane Irene struck large areas of the State of New York on August 26, 2011,
           resulting in widespread flooding and a Federal disaster declaration covering 31
           counties. The remnants of Tropical Storm Lee hit 12 southern New York counties
           (7 of which were also part of the area damaged by Hurricane Irene) early in
           September. Presidential Declarations FEMA-4020-DR and FEMA-4031-DR were
           signed on August 31, 2011, and September 13, 2011, respectively. Some areas
           had a shortage of available housing and required the use of FEMA temporary
           housing units. FEMA officials ordered 240 housing units, manufactured housing
           units, and park models, of which 128 were occupied. The majority of the units
           were installed in commercial mobile home parks since the homeowners’ private
           sites were often in designated floodplain areas. FEMA used a local contractor to
           install units and had some contractor performance problems. A State official
           said that disaster survivors became frustrated with the amount of time it took to
           get manufactured housing units ready for occupancy, and some obtained
           alternative housing.




                            A temporary housing unit on a private property site. Source: OIG

           Other problems reported by FEMA officials were as follows:

                  •	 Units were difficult to heat, and expensive;
                  •	 Three units flooded due to plumbing breaks and had to be removed from
                     service;
                  •	 More than 25 units had problems with faulty and leaking kitchen faucets;
                     and
                  •	 Some units arrived with the electrical breaker box installed upside-down.

www.oig.dhs.gov                                     20                                         	   OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           The most common problem was with the units’ electric heat systems. Since
           manufactured housing units in New York usually are heated with propane, many
           mobile home parks were not wired to support electrically heated units. FEMA
           spent more than $700,000 to rewire the mobile home parks. In addition, the
           heating systems were not satisfactory. In cold weather, the heating systems in
           some FEMA units could not keep the temperature above 65 degrees. Although
           FEMA spent $230 per unit to have a contractor adjust the heating system baffles,
           the airflow from the overhead heating vents still caused the units to feel chilly
           even when the temperature was adequate. Some mobile home parks provided
           residents in FEMA units with space heaters. In addition, the units’ heating
           systems were expensive to operate. FEMA officials estimated that the units’
           heating systems cost two to three times the amount of propane systems in
           similarly sized units.




                     The Prattsville Mobile Home Park expansion funded by FEMA. Source: OIG

           This FEMA-funded mobile home park expansion in Prattsville, NY, is an example
           of the high costs involved in the use of temporary housing. Although small, with
           a population of 1,036, Prattsville had extensive flooding. The damaged homes
           were generally in the floodplain, precluding the use of manufactured housing
           units on private lots. FEMA officials in New York decided to fund the expansion
           of a mobile home park in Prattsville. FEMA officials wrote that the project was
           needed to “minimize the amount of time displaced individuals and families
           spend at alternative locations, and thus limit further economic and personal
           hardship for affected residents, disrupt school attendance and the school
           system, and further strain the Town’s social and economic infrastructure [sic].”
www.oig.dhs.gov                                  21                                           OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Since much of the 2.85 acre expansion was in the floodplain, the project required
           an extensive and expensive fill operation in addition to the costs of road,
           electrical, sewer, and water connections.

           FEMA arranged for the U.S. Army Corps of Engineers to alter the site to
           accommodate 20 additional mobile home pads at a cost of more than $2.7
           million, or more than $135,000 per pad. However, only 10 of these pads were
           occupied by FEMA units because by the time the project was completed, some
           of the families had found other options. Consequently, the expansion alone cost
           FEMA more than $270,000 for each of the 10 occupied units. By the time
           manufactured housing units were purchased and installed, access ramps or stairs
           constructed, and rent paid on the pads, each of the 10 occupied units would cost
           FEMA around $340,000.

           North Dakota

           Heavy rain caused flooding in the City of Minot and other parts of Ward County,
           ND, between February 14 and July 20, 2011. Approximately 800 structures were
           destroyed and an additional 2,400 structures were significantly damaged.
           Presidential Declaration FEMA-1981-DR was signed on May 10, 2011. Nine
           counties and one Tribal Nation were approved for Individual Assistance.




                        Minot, ND, July 6, 2011 – Parts of Minot, ND, still under water after the Souris
                        River overflowed its banks. Source: FEMA

           Three of the affected counties in North Dakota already had housing shortages
           because of the economic boom created by the oil industry. The temporary
           housing mission provided shelter to a total of 1,981 households in 2,041 units.


www.oig.dhs.gov                                     22                                               OIG-13-102

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Some families were provided two units placed on a private site to accommodate
           their family size. All eligible applicants were housed by December 24, 2011.




                   FEMA’s Virgil Workman Group Site in Minot, ND. Source: OIG

           FEMA used all available direct housing options in North Dakota. Units were
           placed at 1,118 private sites to allow residents to be close to their damaged
           homes while making needed repairs. Pads were leased at five commercial
           mobile home parks to place 261 units. FEMA initiated a $40 million mission
           assignment with the U.S. Army Corps of Engineers for the construction of three
           group housing sites to hold a total of 850 units. The Corps was chosen because
           of the proposed aggressive timeline and the limited construction season due to
           the approaching winter. The timeline proved to be unrealistic because of a
           number of delays. It took until December 24, 2011, to have all disaster survivors
           in their units. The paving of roads became a secondary concern as the focus was
           to house the applicants. The Corps had to go back after the thaw to resurface
           the roads.

           Housing unit problems due to design and manufacturing quality control included
           the following:

                  •	 Water leaks from sinks and toilets;
                  •	 The air returns over beds were a common complaint and some survivors
                     began to use space heaters in order to turn the systems off and stay warm;
                  •	 Some two-axle units from one manufacturer commonly had hitches
                     break during transport, forcing drivers to repair units on the side of the
                     road prior to arrival at the staging area;


www.oig.dhs.gov                                     23                              	    OIG-13-102

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  •	 449 units from one manufacturer had electrical boxes installed upside-
                     down; and
                  •	 Some units had underrated electrical wire for the size and electrical load
                     of the HVAC unit.

           North Dakota’s weather presented challenges for FEMA’s direct housing mission
           and caused FEMA to spend $13 million to winterize units. Above-ground utilities
           on private sites were heat taped, insulated, and further insulated with a spray
           foam casing. There were still some issues with frozen pipes on private sites
           mainly because the utility lines were connected to the applicant’s utilities in the
           basement of their homes, which required the basement to be heated. Insulated
           skirting was applied to all units throughout all private, commercial, and group
           sites to protect the plumbing and keep the wind from circulating underneath the
           unit. In addition, spray foam insulation was applied under the units to cover
           exposed pipes. Arctic Entryways were applied to all housing units on group and
           commercial sites and given as an option to households with units on private sites
           to protect against wind and provide a dry area during the winter months. These
           entryways initially made some UFAS units noncompliant because the space
           between the door and the wall of the arctic room was not enough to turn a
           wheelchair. Adjustments were made and some ramps also had to be
           reconstructed.

           Despite the winterization processes, there were still issues with frozen pipes in
           group sites, especially with park models constructed by two manufacturers. One
           manufacturer’s units were constructed so that the water lines rested on the
           frame of the unit, and when the frame froze it would freeze the water line. All
           47 units from another manufacturer in the Virgil Workman Group Site had pipe
           freezing issues. The water lines were heat taped and insulated from the ground
           to the unit, but there was insufficient insulation in the walls and floor of the unit
           causing the lines to freeze and break.

           FEMA faced housing unit size issues when trying to place units on private sites.
           Some private sites could fit only a two-bedroom park model. FEMA officials said
           that units larger than the two-bedroom park model would have made many
           private sites infeasible. Smaller units had to be used in one site because
           electrical grids were not able to handle the electric requirements of larger units.




www.oig.dhs.gov                                   24                                 	    OIG-13-102

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




                       A winterized unit installed on a private site in North Dakota. An arctic room was
                       constructed, insulated skirting was added, and spray foam was also added to insulate
                       the utility lines. Source: FEMA

           Alabama

           Alabama was affected by severe storms, tornadoes, straight-line winds, and
           flooding from April 15 to May 31, 2011. The storm system, which created 64
           tornadoes—20 of which were Enhanced Fujita scale 3 to 5—caused 241
           fatalities. It resulted in catastrophic or extensive damage to more than 14,000
           homes, mobile homes, and apartment units. Presidential Declaration FEMA-
           1971-DR was signed on April 28, 2011. In total, 43 counties were approved for
           Individual Assistance.

           FEMA officials said that housing could be deployed quickly because one of
           FEMA’s major long-term temporary housing unit storage centers is located in
           Selma, AL. Consequently, the cost of transport was low and staging costs were
           nonexistent. Local officials said that the first housing units were placed about 10
           days after the disaster, possibly the quickest they have ever seen. Units were
           placed on 235 private sites and 18 commercial sites, which held an additional 94
           units, throughout the approved counties. Applicants moved into temporary
           housing units from May 11 to August 9, 2011.

           Local officials said that the overall housing mission was a big success. However,
           there were still some problems with the units, including the following:

                  •   Inadequate HVAC systems causing some mold issues;

www.oig.dhs.gov                                       25                                             OIG-13-102

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                  •   HVAC systems’ dampers requiring adjustments; and
                  •   Broken faucets and plumbing issues.

           In some cases, the larger units would not fit on private sites. Smaller park
           models fit the best and allowed survivors to stay on their own property while
           repairs were made. Local officials said that they would have liked to have had
           more park models available as the units allow for more private sites to be used
           and costs to be reduced.




                      A housing unit on a private lot. Source: FEMA

           Mississippi

           Mississippi was affected by severe storms, tornadoes, straight-line winds, and
           associated flooding from April 15 to 28, 2011. The storm system caused 37
           fatalities and produced violent super-cell thunderstorms and at least 14
           tornadoes. Mississippi was also affected by flooding along the Mississippi River
           from May 3 to June 17, 2011. Presidential Declarations FEMA-1972-DR and
           FEMA-1983-DR were signed on April 29, 2011, and May 11, 2011, respectively.




www.oig.dhs.gov                                      26                               OIG-13-102

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




                        The rising waters of the Mississippi River surround this home in Vicksburg, MS.
                        Source: FEMA

           A largely rural area was affected, and the surrounding 50-mile radius that FEMA
           uses to identify rental resources would have put survivors out of the state to
           Tennessee. Many of the applicants would not have had the resources to travel
           between a rental property and their damaged homes or children’s schools. Local
           officials said that getting the 50-mile radius requirement waived and a direct
           housing mission approved caused delays.

           Mississippi received a total of 209 temporary housing units, 159 of which were
           placed on private and commercial sites. FEMA did not use group sites in
           Mississippi, but units were placed in five commercial mobile home parks, which
           included one park expansion in Tunica County.

           Problems encountered included the following:

                  •	 Getting the waiver for the 50-mile radius;
                  •	 Getting the units placed in a timely matter; and
                  •	 Swapping out 13 park model units from one manufacturer because of
                     moisture and mold issues.

           North Carolina

           North Carolina was affected by severe storms, tornadoes, and flooding in April
           2011. Hurricane Irene caused flooding from August 25 to September 1, 2011,
           and was the most severe flooding in North Carolina since Hurricane Floyd in


www.oig.dhs.gov                                      27                                        	     OIG-13-102

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           1999. Presidential Declarations FEMA-1969-DR and FEMA-4019-DR were signed
           on April 19, 2011, and August 31, 2011, respectively.




                               Home affected by Hurricane Irene. Source: FEMA

           Because of limited rental housing in the affected area, FEMA placed 245
           temporary housing units in North Carolina. Disaster survivors affected by
           Hurricane Irene were placed in temporary housing units within 60 days of the
           units’ arrival at the staging area. Within 8 months, FEMA assisted 164 families in
           completing permanent housing plans and vacating the units.




                     Housing units in a commercial mobile home park. Source: FEMA 





www.oig.dhs.gov                                  28                                    OIG-13-102

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Problems encountered included the following:

                  •	 Some units had to be returned because of interior water damage that
                     occurred during transport;
                  •	 Improper ventilation of the units because of inadequate HVAC systems;
                  •	 Plumbing system leaks; and
                  •	 Defective microwave ovens.

           The locations most affected by Hurricane Irene were subject to flooding, and
           therefore restricted as to the type of temporary housing permitted by State or
           local zoning codes. Initially, temporary housing units were not a viable option in
           those locations because of the number of displaced survivors; agreement was
           reached by the counties, the State, and FEMA to allow several two-bedroom
           park model units to be located in the area. Those units had to be removed from
           potential flood zones prior to the start of hurricane season, the following June.




                              FEMA contractors placing a temporary housing unit on the private site.
                              Source: FEMA




www.oig.dhs.gov                                     29                                       	     OIG-13-102

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Kaye McTighe, Director
   Nigel Gardner, Audit Manager
   Donald Norman, Audit Manager
   Kimberly Letnaunchyn, Program Analyst




www.oig.dhs.gov                            30                  OIG-13-102

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix E

   Report Distribution 

   Department of Homeland Security

   Secretary 

   Deputy Secretary 

   Chief of Staff

   Deputy Chief of Staff 

   General Counsel 

   Executive Secretary 

   Director, GAO/OIG Liaison Office

   Assistant Secretary for Office of Policy

   Assistant Secretary for Office of Public Affairs 

   Assistant Secretary for Office of Legislative Affairs 

   DHS Component Liaison 

   Acting Chief Privacy Officer 


   Federal Emergency Management Agency

   Administrator 

   Acting Chief of Staff 

   Chief Financial Officer

   Chief Counsel

   Chief Procurement Officer

   Acting Chief Privacy Officer 

   Associate Administrator for Policy and Program Analysis 

   Director, Program Analysis and Evaluation Division 

   Director, Risk Management and Compliance

   Audit Liaison, FEMA (Job Code 12-114-FEMA-EMO) 


   Office of Management and Budget

   Chief, Homeland Security Branch

   DHS OIG Budget Examiner


   Congress

   Senate Committee on Appropriations, Subcommittee on Homeland Security 

   Senate Committee on Homeland Security and Governmental Affairs 

   House Committee on Appropriations, Subcommittee on Homeland Security

   House Committee on Homeland Security 

   House Committee on Oversight and Government Reform 


www.oig.dhs.gov                                      31                      OIG-13-102
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
